                The Modernization Program Is Establishing
                  a Requirements Management Office to
                 Address Requirements Development and
                         Management Problems

                                   January 2005

                       Reference Number: 2005-20-023




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          January 19, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                   Gordon C. Milbourn III
                              Assistant Inspector General for Audit
                              (Small Business and Corporate Programs)

      SUBJECT:                Final Audit Report - The Modernization Program Is Establishing a
                              Requirements Management Office to Address Requirements
                              Development and Management Problems
                              (Audit # 200320026)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Business Systems Modernization Office (BSMO) requirements development and
      management activities. The overall objective of this review was to determine whether
      the BSMO has established and is following adequate requirements management
      practices to assure the effective development of modernization projects that meet
      customer needs. This review was part of our Fiscal Year (FY) 2004 Annual Audit Plan
      for reviews of the IRS Business Systems Modernization (BSM) efforts.
      In summary, from November 2001 through November 2004, the Treasury Inspector
      General for Tax Administration (TIGTA) issued 16 reports identifying BSM requirements
      development and management problems. Our analysis of these reports identified two
      recurring issues:
           1) Project management did not adequately identify requirements to address
              customers’ needs and project development criteria (e.g., computer programming
              naming standards and financial reporting requirements) before initiating
              development activities.
           2) Project management did not trace all requirements to test cases to ensure the
              projects’ operations met expectations.
                                                       2

As a result of these continuing problems, some modernization projects have
experienced scheduling delays and increased costs to resolve the requirements
development and management issues.
The new Associate Chief Information Officer (CIO), BSM, recognized the significance of
these issues and has developed a proposal for establishing a Requirements
Management Office. Once established, this Office will work to resolve the requirements
development and management problems affecting the BSM program.
The proposal for establishing the Requirements Management Office includes three
options. These options have varying degrees of depth in proposed management and
control goals, each dependent on the FY 2005 budget allocation for this Office. All
three options include using an independent requirements contractor to facilitate the
requirements development and management of the modernization projects. The BSMO
is in the process of defining and deciding upon the responsibilities for this Office.
Consequently, detailed analyses estimating the costs and resources necessary for each
of the proposed options have not been completed. The BSMO is currently developing a
work breakdown structure1 which should aid in defining and clarifying the related tasks
needed to establish and operate the Requirements Management Office.
Our review of the proposal determined the Requirements Management Office options
can be enhanced to ensure effective development and management of requirements.
The options as presented in the proposal do not include specific direction to adequately
address issues we previously reported. In addition, the options can be enhanced by
addressing all guidelines for developing and managing requirements that are included in
the Enterprise Life Cycle (ELC)2 and the Carnegie Mellon Software Engineering
Institute’s (SEI)3 Capability Maturity Model Integration (CMMI) models.4
Further, the Requirements Management Office proposal has not yet thoroughly
considered several key scope aspects that will allow it to begin operating effectively.
These scope aspects include determining the Office’s specific responsibilities, the
source and amount of funding, the staffing needs, the time period for establishing the
Office, and a schedule of current or planned modernization projects that will need
requirements development and management services.
As part of the ongoing development of the proposed Requirements Management Office,
we recommended the CIO ensure the Office’s proposed oversight responsibilities
address previous TIGTA report findings and consider incorporating ELC and CMMI
guidance. In addition, the CIO should ensure the BSMO prepares detailed analyses of

1
  A work breakdown structure is a grouping of products and services created to meet the objectives. Each
descending level represents an increasingly detailed definition of the products or services.
2
  The ELC establishes a set of repeatable processes and a system of reviews that reduce the risks of system
development on BSM projects. See Appendix VIII for an overview of the ELC.
3
  The SEI is a Federally funded research and development center sponsored by the Department of Defense. Its core
purpose is to help others make measured improvements in their software engineering capabilities.
4
  The CMMI models provide guidance for an organization to use when developing its processes. These models help
an organization appraise its capability, establish priorities for improvement, and implement these improvements.
                                            3

anticipated costs and resources to serve as justification for establishing and operating
the Office.
Management’s Response: IRS management agreed with the report recommendations,
and corrective actions are underway to address them. The CIO is reviewing the
previous TIGTA reports for program-wide requirements management issues.
Consideration is being given to adopting applicable CMMI capabilities in establishing
the Requirements Management Office and in developing more effective requirements
development and management processes. The CIO also plans to follow the required
guidance and procedures for standing up a new office. To date, the CIO has a
high-level plan for standing up the Requirements Management Office and has drafted
mission and functional statements, built a framework for the concept of operations, and
identified staffing needs for the proposed Office. The CIO is evaluating proposals for
requirements development and management contractual services for developing a pilot
plan and schedule. After evaluating stakeholder input to the Requirements
Management Office’s concept of operations and the results of the pilot, the CIO will
assess the cost and risk parameters to make changes and implement new capabilities.
Management’s complete response to the draft report is included as Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems




                                                  Table of Contents


Background ............................................................................................... Page 1
Continuing Requirements Development and Management
Problems Encouraged the Modernization Program to Propose
a Requirements Management Office......................................................... Page 2
Industry Guidance and Prior Audit Results Will Assist the
Proposed Requirements Management Office in Effectively
Developing and Managing Project Requirements ..................................... Page 4
         Recommendation 1: .......................................................................Page 9

Detailed Cost and Resource Analyses Will Help the Proposed
Requirements Management Office Determine the Extent of
Services It Can Offer ................................................................................. Page 10
         Recommendation 2: .......................................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Outcome Measures............................................................ Page 17
Appendix V – Internal Revenue Service Modernization Projects .............. Page 18
Appendix VI – Previously Reported Findings on Requirements
Development and Management Activities ................................................. Page 20
Appendix VII – Comparison of Audit Findings, Requirements
Development and Management Guidelines, and Proposed
Requirements Management Office Responsibility Options ....................... Page 35
Appendix VIII – Enterprise Life Cycle Overview ........................................ Page 38
Appendix IX – Management’s Response to the Draft Report .................... Page 43
     The Modernization Program Is Establishing a Requirements Management Office
          to Address Requirements Development and Management Problems

                                A requirement is a condition or capability that a user must
Background
                                have to solve a problem or achieve an objective. More
                                specifically, a requirement is a formalization of a need and
                                is the statement of a capability or condition that a system,
                                subsystem, or system component must have or meet to
                                satisfy a contract, standard, or specification.
                                Requirements management is the process that controls and
                                documents all project requirements for the duration of the
                                project. It involves establishing the requirements,
                                controlling all subsequent requirements changes, and
                                establishing and maintaining agreement among the
                                customers and those who provide the requested products or
                                services. Requirements management ensures requirements
                                are unambiguous, traceable, verifiable, documented, and
                                controlled. An effective requirements development and
                                management process can prevent potential problems before
                                they become serious problems that cause schedule delays
                                and additional costs.
                                In the Internal Revenue Service’s (IRS) Business Systems
                                Modernization (BSM) program, project managers work
                                jointly with other IRS representatives and stakeholders to
                                develop product requirements to ensure business needs are
                                well understood. Typically a contractor, working with the
                                IRS, is tasked to define the requirements.
                                A study by the Savant Institute1 reported poor
                                communication between the user and analyst in defining
                                requirements caused 56 percent of the errors in installed
                                systems. These errors were the most expensive to correct,
                                using 82 percent of available staff time. This study further
                                noted over 30 percent of application development projects
                                will be cancelled before they begin, over 50 percent of the
                                projects will exceed their budget by 89 percent, and only
                                16 percent of the projects are completed on time. The
                                primary reasons for the success and failure of projects center
                                on requirements development and management.
                                The IRS is involved in a 15-year, $8 billion BSM effort and
                                has started 13 modernization projects2 in the past 5 years.

                                1
                                  Management Concepts Incorporated, Defining and Managing
                                Information Technology Project Requirements, dated 2003.
                                2
                                  Appendix V lists the individual modernization projects.
                                                                                            Page 1
     The Modernization Program Is Establishing a Requirements Management Office
          to Address Requirements Development and Management Problems

                                To date, we have reported nine of these projects have
                                encountered varying degrees of problems associated with
                                requirements development and management. In four
                                projects, these problems have been severe enough to
                                contribute to schedule delays and cost overruns. The cost of
                                repairing requirement-related defects grows exponentially as
                                the project progresses through its life cycle.
                                This audit was performed at the BSM Office (BSMO)
                                facilities in New Carrollton, Maryland, during the period
                                August through November 2004. The audit was conducted
                                in accordance with Government Auditing Standards.
                                Detailed information on our audit objective, scope, and
                                methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                From November 2001 through November 2004, the
Continuing Requirements
                                Treasury Inspector General for Tax Administration
Development and Management
                                (TIGTA) issued 16 reports identifying requirements
Problems Encouraged the
                                development and management problems. We made
Modernization Program to
                                26 recommendations about requirements development and
Propose a Requirements
                                management in these reports. The BSMO completed
Management Office
                                corrective actions to implement 19 of these
                                recommendations, 4 are in process, and 3 have not been
                                acted on by management. The TIGTA disagreed with the
                                adequacy of one of the completed corrective actions. See
                                Appendix VI for details on the recommendations and
                                corrective actions for the 16 reports.
                                The new Associate Chief Information Officer (CIO), BSM,
                                recognized the significance of these issues and has
                                developed a proposal for establishing a Requirements
                                Management Office. Once established, this Office will
                                work to resolve the requirements development and
                                management problems affecting the BSM program. This
                                includes providing oversight for all participants involved in
                                modernization requirements development and management
                                activities.
                                Our analysis of the 16 reports identified 2 recurring
                                problems that will need to be addressed by the new
                                Requirements Management Office. These problems
                                recurred even though the BSMO addressed similar issues
                                with corrective actions in other project activities. The
                                recurring problems are:
                                                                                       Page 2
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                          •    Project management did not adequately identify
                               requirements to address customers’ needs and project
                               development criteria (computer programming naming
                               standards, financial reporting requirements, etc.) before
                               initiating development activities.
                          •    Project management did not trace all requirements to test
                               cases to ensure the projects’ operations met expectations.
                           Identifying requirements prior to initiating development
                           activities
                           In a November 2001 report about the BSM’s key system
                           development processes,3 we reported business requirement
                           identification was not completed by the modernization
                           projects before entering the Development phase. We
                           recommended the BSMO identify and incorporate business
                           requirements meeting customer needs prior to entering the
                           Development phase.
                           In July 2002, the BSMO responded that no additional
                           corrective action was needed because the BSMO approved
                           the Enterprise Architecture which established the high-level
                           requirements and standards for the IRS’ business activities.
                           Additionally, the Enterprise Life Cycle (ELC)4 already
                           called for the identification of requirements early in the
                           development of the projects.
                           Since November 2001, we have issued nine reports with
                           findings about project activities not completely identifying
                           requirements before entering the Development phase
                           (see Appendix VI, Table 1 for details).
                           Tracing requirements to test cases
                           In March 2002, we reported testing processes did not ensure
                           all requirements were working as intended and
                           recommended the BSMO receive documentation from the



                           3
                             Modernization Project Teams Need to Follow Key Systems
                           Development Processes (Reference Number 2002-20-025, dated
                           November 2001).
                           4
                             The ELC establishes a set of repeatable processes and a system of
                           reviews that reduce the risks of system development on BSM projects.
                           See Appendix VIII for an overview of the ELC.
                                                                                         Page 3
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

                                 contractor tracing the project requirements to test cases.5
                                 The BSMO took no additional action to address this issue,
                                 citing a July 2001 procedure requiring the traceability of
                                 requirements to test cases.
                                 Since March 2002, we have issued six reports with findings
                                 about problems in tracing the development and performance
                                 of modernization projects’ requirements (see Appendix VI,
                                 Table 2 for details).
                                 The BSMO has taken corrective actions to address most of
                                 the requirements development and management findings we
                                 reported. However, the recurring issues have continued. As
                                 a result of these issues, some modernization projects have
                                 experienced scheduling delays and increased costs to
                                 resolve their requirements development and management
                                 issues.
                                 The BSMO’s July 2004 presentation proposing the
Industry Guidance and Prior
                                 Requirements Management Office includes three options.
Audit Results Will Assist the
                                 The three options have varying degrees of depth in proposed
Proposed Requirements
                                 management and control goals, each dependent on the
Management Office in
                                 Fiscal Year 2005 budget allocation for this Office. All three
Effectively Developing and
                                 options include using an independent requirements
Managing Project
                                 contractor to facilitate the requirements development and
Requirements
                                 management of the modernization projects.
                                 Table 1 presents the proposed Requirements Management
                                 Office’s responsibilities under each of the recommended
                                 options. Currently, BSMO management intends to
                                 implement Option 2.




                                 5
                                  The Customer Communications Project 2001 Release Was Deployed,
                                 But Testing Processes Did Not Ensure All Applications Were Working
                                 As Intended (Reference Number 2002-20-056, dated March 2002).
                                                                                             Page 4
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                                   Table 1: Proposed Requirements Management Office
                                                 Responsibility Options
                                Proposed Requirements             Option   Option    Option
                                  Management Office                 1        2         3
                                   Responsibilities
                           Cofacilitate business requirements       •
                           with the requirements contractor to
                           ensure use of standard requirements
                           development techniques.
                           Assist in the identification and         •
                           integration of enterprise
                           requirements.
                           Build the consolidated IRS               •         •
                           requirements database.
                           Set up and manage a requirements         •         •
                           development and management web
                           site.
                           Provide requirements training and        •         •
                           coaching to modernization projects.
                           Establish requirements standards and     •         •           •
                           templates. Monitor and report on
                           compliance and performance.
                           Establish requirements governance.       •         •           •
                           Establish requirements development       •         •           •
                           and management responsibilities
                           across the enterprise.
                           Manage the requirements contractor.      •         •           •
                           Define requirements metrics.             •         •           •
                           Source: BSMO Business Integration Office – BSMO Requirements
                           Management Office – Recommendations, July 2004.

                           When developing its processes, the Requirements
                           Management Office should consider addressing previous
                           TIGTA report issues
                           To assess the adequacy of the plans for the Requirements
                           Management Office, we identified ELC and Carnegie




                                                                                     Page 5
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                           Mellon Software Engineering Institute (SEI)6 guidance for
                           requirements development and management. Both the ELC
                           and SEI provide guidance that supports the need to address
                           the two recurring issues we have reported.
                           As shown in the July 2004 presentation, the BSMO’s
                           recommended options for the proposed Requirements
                           Management Office do not include detailed direction to
                           address the previously reported issues. Specifically, the
                           options do not provide details to ensure modernization
                           project requirements are complete prior to beginning
                           development activities, nor do they specify processes to
                           ensure test cases are traced to the original customer
                           requirements. Appendix VII presents a comparison of the
                           audit findings and related requirements development and
                           management guidelines with the July 2004 presentation’s
                           proposed Requirements Management Office responsibility
                           options. We provided the BSMO an early version of this
                           analysis to help it with start-up activities for the Office.
                           When developing its processes and responsibilities, the
                           proposed Requirements Management Office should
                           incorporate all appropriate industry guidance for
                           developing and managing requirements
                           The SEI’s Capability Maturity Model Integration (CMMI)
                           models provide guidance for an organization to use when
                           developing its processes. These models help an
                           organization appraise its capability, establish priorities for
                           improvement, and implement these improvements. The
                           CMMI models include the essential elements to guide an
                           organization to improve its requirements development,
                           management, and verification and validation processes.
                           The BSMO requested the SEI to perform a Standard CMMI
                           Appraisal Method for Process Improvement (SCAMPI).
                           The September 28, 2004, SCAMPI Final Findings Briefing
                           identified acquisition program strengths of project team
                           requirements development and management activities that
                           included using a team approach with business

                           6
                            The SEI is a Federally funded research and development center
                           sponsored by the Department of Defense. Its core purpose is to help
                           others make measured improvements in their software engineering
                           capabilities.
                                                                                          Page 6
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                           representatives and other stakeholders throughout the
                           project life cycle, developing and maintaining a
                           requirements management plan, and using a change control
                           board to assess the impact of changes to a system. The
                           SCAMPI Final Findings Briefing also identified overall
                           modernization program acquisition weaknesses affecting
                           project requirements development and management
                           activities, including problems in managing acquisition
                           project schedules and resources, an absence of adequate
                           senior management reviews, and an absence of the use of
                           measures to assess project status.
                           We compared CMMI model guidelines to the three
                           recommended options for the proposed Requirements
                           Management Office. The July 2004 presentation proposing
                           the Office’s responsibilities did not incorporate the
                           following important CMMI requirements development and
                           management guidelines:
                           •   Develop an understanding with the requirements
                               providers of the meaning of the requirements.
                           •   Manage changes to the requirements as they evolve
                               during the project.
                           •   Identify inconsistencies between project work and
                               requirements.
                           •   Analyze requirements to ensure they are necessary and
                               sufficient.
                           •   Validate requirements to ensure the resulting product
                               will perform appropriately in its intended-user
                               environment.
                           •   Place designated work products from the requirements
                               management, development, and verification and
                               validation processes under appropriate levels of
                               configuration management.
                           •   Review the activities, status, and results of the
                               requirements management, development, and
                               verification and validation processes with higher-level
                               management and resolve any issues.
                           Incorporating all applicable requirements development and
                           management guidelines into the oversight responsibilities
                                                                                   Page 7
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                           for the proposed Requirements Management Office will
                           help avoid the recurring issues that have negatively affected
                           the BSM program and contributed to additional project costs
                           and delays. For example, in March 2004 we reported
                           ineffective project design coordination delayed the
                           Modernized e-File project’s deployment.7 The delay
                           occurred because the infrastructure requirements were not
                           communicated to the application developer during the
                           project design. During the development of the Modernized
                           e-File application, the project team determined the
                           modernized infrastructure8 could not accept the application.
                           To deploy the application, the project team had to develop a
                           solution to allow it to function on the infrastructure.
                           At the time of the report’s issuance in March 2004, a cost
                           estimate was not available for the infrastructure changes
                           needed to accept the Modernized e-File application. The
                           PRIME contractor9 has now estimated $1.25 million was
                           needed to pay for the changes to the infrastructure to accept
                           the application. If the requirements had been identified
                           prior to development activities, this rework would not have
                           been needed and $1.25 million of BSM funding could have
                           been put to better use. Appendix IV presents detailed
                           information on the measurable impact that our
                           recommended corrective action will have on tax
                           administration.
                           The BSMO recognizes the need for improvements in its
                           requirements development and management processes. It
                           has taken steps to improve project development activities,
                           which include requirements development and management.
                           In August 2004, the IRS implemented an ELC directive



                           7
                             Modernized e-File Project Integration Difficulties Have Delayed Its
                           Deployment (Reference Number 2004-20-072, dated March 2004).
                           8
                             The modernized infrastructure under development is geographically
                           dispersed over various sites and includes numerous pieces of hardware
                           and software, which must effectively communicate and interact with
                           each other as they support projects that provide benefits to taxpayers and
                           IRS employees.
                           9
                             The PRIME contractor is the Computer Sciences Corporation, which
                           heads an alliance of leading technology companies brought together to
                           assist with the IRS’ efforts to modernize its computer systems and
                           related information technology.
                                                                                             Page 8
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                           which includes revised ELC Milestone Readiness Criteria.10
                           As of August 20, 2004, all BSMO modernization projects
                           were expected to follow the revised ELC processes and
                           procedures. This revised ELC places greater emphasis on
                           agreement and ownership, establishes more rigorous
                           milestone exit11 criteria, and requires completion of the
                           physical design prior to initiation of project development.
                           Although the BSMO has established the above policy, the
                           proposed Requirements Management Office has not yet
                           completed the details of its processes to include the revised
                           milestone readiness criteria as part of its oversight
                           responsibilities. Further, it has not yet included all
                           necessary requirements development and management
                           guidance suggested by the CMMI to aid in ensuring the
                           success of BSM project design and development.

                           Recommendation

                           As part of the ongoing development of the proposed
                           Requirements Management Office, the CIO should ensure:
                           1. The Office’s proposed oversight responsibilities address
                              the previous TIGTA report findings and consider
                              incorporating the recently updated ELC milestone exit
                              criteria and all appropriate CMMI guidance.
                           Management’s Response: The CIO is reviewing the
                           previous TIGTA reports for program-wide requirements
                           management issues. Consideration is being given to
                           adopting applicable CMMI capabilities in establishing the
                           Requirements Management Office and in developing more
                           effective requirements development and management
                           processes. After deciding on the approach and assessing the
                           gaps, the CIO will assess the cost and risk parameters to
                           make changes and implement new capabilities.




                           10
                              Milestone Readiness Criteria list artifacts, deliverables, and work
                           products that are essential for all project Milestone exits.
                           11
                              Milestone exits (i.e., Milestone 1, 2, 3, 4A, 4B, and 5) are key
                           decision points in the lifecycle of the project development effort.
                                                                                              Page 9
        The Modernization Program Is Establishing a Requirements Management Office
             to Address Requirements Development and Management Problems

                                   The BSMO is in the process of defining and deciding upon
Detailed Cost and Resource
                                   the responsibilities for the Requirements Management
Analyses Will Help the Proposed
                                   Office. Consequently, detailed analyses estimating the costs
Requirements Management
                                   and resources necessary for each of the proposed options
Office Determine the Extent of
                                   have not been completed. The BSMO is currently
Services It Can Offer
                                   developing a work breakdown structure12 which should aid
                                   in defining and clarifying the related tasks needed to
                                   establish and operate this Office.
                                   Before the Requirements Management Office can be
                                   established and begin operating effectively, a number of key
                                   scope aspects need to be addressed, including:
                                   •    Specific responsibilities of the Office.
                                   •    Source and amount of funding for the Office.
                                   •    Staffing needs to carry out the Office’s responsibilities.
                                   •    Time period for establishing the Office.
                                   •    Schedule of which current or planned modernization
                                        projects will need requirements development and
                                        management services.
                                   The Internal Revenue Manual (IRM) provides guidelines for
                                   establishing policy, procedures, and responsibility for
                                   organizing the mission, function and structure of the IRS.13
                                   This guidance provides direction for planning and proposing
                                   the desired organizational component. The guidance
                                   suggests development of a written proposal describing and
                                   justifying the need, the proposed changes and the expected
                                   impact, and describing how the impact will be implemented
                                   and evaluated. The proposal provides the approving official
                                   all information required to make a sound, informed
                                   decision.
                                   The IRM guidance also provides for a comprehensive
                                   reorganization proposal including elements such as the
                                   purpose of the proposed changes in terms of the business
                                   need, the mission and functional statements of the proposed
                                   organization, and current and proposed staffing. Also, the

                                   12
                                      A work breakdown structure is a grouping of products and services
                                   created to meet the objectives. Each descending level represents an
                                   increasingly detailed definition of the products or services.
                                   13
                                      IRM 1.1.4, Organizational Planning.
                                                                                                 Page 10
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                           IRM suggests a list and analysis of costs, savings and
                           benefits – particularly the costs and savings for personnel,
                           support services (e.g., space, equipment, relocation,
                           telecommunications, supplies), and any intangible costs and
                           benefits.14
                           In the development of the work breakdown structure,
                           detailed cost and resource analyses would help the BSMO
                           justify the funding needed to address the requirements
                           development and management issues. In addition, these
                           analyses would help identify when and how the proposed
                           Requirements Management Office can perform
                           requirements development and management activities to
                           support the BSM projects.

                           Recommendation

                           The CIO should ensure the BSMO:
                           2. Prepares detailed analyses of anticipated costs and
                              resources to serve as justification for establishing the
                              Requirements Management Office. The analyses should
                              include items such as the Office’s responsibilities, the
                              source and amount of funding, the staffing needs, the
                              time period for establishing the Office, and a schedule
                              for providing its services to modernization project
                              teams.
                           Management’s Response: The CIO will follow the required
                           guidance and procedures for standing up a new office. To
                           date, the CIO has a high-level plan for standing up the
                           Requirements Management Office and has drafted mission
                           and functional statements, built a framework for the concept
                           of operations, and identified staffing needs for the proposed
                           Office. The CIO is evaluating proposals for requirements
                           development and management contractual services for
                           developing a pilot plan and schedule. After evaluating
                           stakeholder input to the Requirements Management Office’s
                           concept of operations and the results of the pilot, the CIO



                           14
                                IRM 1.1.4.5, Planning and Proposal.


                                                                                Page 11
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                           will assess the cost and risk parameters to make changes and
                           implement new capabilities.




                                                                               Page 12
       The Modernization Program Is Establishing a Requirements Management Office
            to Address Requirements Development and Management Problems

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective for this review was to determine whether the Business Systems
Modernization Office (BSMO) has established and is following adequate requirements
management practices to assure the effective development of modernization projects that meet
customer needs. To accomplish this objective, we:

I.       Researched the Internal Revenue Manual, the Enterprise Life Cycle,1 and the Carnegie
         Mellon Software Engineering Institute’s (SEI)2 Capability Maturity Model Integration
         (CMMI)3 guidance to identify applicable guidance to ensure project requirements are
         appropriately considered in managing modernization project development.

II.      Researched prior Treasury Inspector General for Tax Administration (TIGTA) reports for
         previously reported requirements development and management issues.

         A.       Determined whether there were recurring issues identified even though there have
                  been corrective actions reported as completed.

         B.       Identified potential outcomes based on the BSMO’s actions to ensure the
                  requirements were developed and deployed.

III.     Identified potential results of ongoing or recently completed audits related to
         requirements development and management and determined whether repeat issues were
         to be reported in these audits.

IV.      Analyzed planned actions to improve requirements development and management to
         determine whether guidelines and previously reported TIGTA issues will be addressed.
         A.       Interviewed BSMO staff to determine the actions being taken to address
                  requirements development and management guidelines and previously identified
                  TIGTA issues not identified in the Requirements Management Office –
                  Recommendations presentation, dated July 23, 2004.




1
  The Enterprise Life Cycle establishes a set of repeatable processes and a system of reviews that reduce the risks of
system development on Business Systems Modernization projects.
2
  The SEI is a Federally funded research and development center sponsored by the Department of Defense. Its core
purpose is to help others make measured improvements in their software engineering capabilities.
3
  The CMMI models provide guidance for an organization to use when developing its processes. These models help
an organization appraise its capability, establish priorities for improvement, and implement these improvements.
                                                                                                             Page 13
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

 B.    Interviewed the Deputy Associate Chief Information Officer, Business
       Integration, to determine the current status for establishing the proposed
       Requirements Management Office including the time periods for initiating the
       Office and problems that might affect its implementation.




                                                                               Page 14
     The Modernization Program Is Establishing a Requirements Management Office
          to Address Requirements Development and Management Problems

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Michael Garcia, Senior Auditor
Perrin Gleaton, Senior Auditor
Beverly Tamanaha, Senior Auditor




                                                                                         Page 15
     The Modernization Program Is Establishing a Requirements Management Office
          to Address Requirements Development and Management Problems

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Director, Stakeholder Management Division OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 16
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

                                                                                              Appendix IV


                                          Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Cost Savings, Funds Put to Better Use – Actual; $1,250,000 (see page 4).
Methodology Used to Measure the Reported Benefit:
In a prior audit report, we reported ineffective project design coordination delayed the
Modernized e-File project’s deployment.1 The delay occurred because the infrastructure
requirements were not communicated to the application developer during the project’s design.
During the development of the Modernized e-File application, the project team determined the
modernized infrastructure2 could not accept the application. To deploy the application, the
project team had to develop a solution to allow it to function on the infrastructure. At the time of
the report’s issuance in March 2004, a cost estimate was not available for the infrastructure
changes needed to accept the Modernized e-File application. The PRIME contractor3 has now
estimated $1.25 million was needed to pay for the changes to the infrastructure to accept the
application based on actual charges during the period September through November 2003. If the
requirements had been identified prior to development activities, this rework would not have
been needed.




1
  Modernized e-File Project Integration Difficulties Have Delayed Its Deployment (Reference Number 2004-20-072,
dated March 2004).
2
  The modernized infrastructure under development is geographically dispersed over various sites and includes
numerous pieces of hardware and software, which must effectively communicate and interact with each other as
they support projects that provide benefits to taxpayers and Internal Revenue Service (IRS) employees.
3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
                                                                                                      Page 17
         The Modernization Program Is Establishing a Requirements Management Office
              to Address Requirements Development and Management Problems

                                                                                                  Appendix V


                         Internal Revenue Service Modernization Projects
Table 1 presents the modernization projects initiated by the Internal Revenue Service (IRS) in
the past 5 years.
                                     Table 1: IRS Modernization Projects

                 Project              Year                             Description
                                    Initiated
    1.     Custodial Accounting       1999      Uses a data warehousing approach for storing, analyzing, and
           Project/Planning,                    reporting taxpayer accounts and collections information.
           Analysis and
           Decision Support*

    2.     Customer                   1999      Provides needed enhancements to the IRS telephone
           Communications*                      infrastructure.

    3.     Customer                   1999      Provides a commercial-off-the-shelf software package that
           Relationship                         can be used by revenue agents to accurately and consistently
           Management Exam                      compute complex corporate taxes.

    4.     Security and               1999      Provides a customer-focused technical infrastructure for
           Technology                           secure telephony and electronic interaction among
           Infrastructure Release               employees, tax practitioners, and taxpayers.

    5.     Customer Account           2000      Provides an online, modernized data infrastructure which
           Data Engine*                         will house the authoritative taxpayer account and return data.

    6.     e-Services*                2000      Focuses on revolutionizing the way taxpayers transact and
                                                communicate with the IRS.

    7.     Enterprise Systems         2000      Executes a strategy to provide network and systems
           Management*                          management to improve the information technology
                                                infrastructure availability and performance.

    8.     Integrated Financial       2001      Provides the IRS better financial budgeting, planning,
           System*                              tracking, reporting, and management.

    9.     Internet Refund/Fact       2001      Builds upon the improvements delivered in the Customer
           of Filing*                           Communications project by providing initial Internet
                                                capability for refund information.

   10.     Customer Account           2002      Creates the interface and redesigned business processes that
           Management                           will be used on a daily basis by IRS customer service
                                                representatives. Due to budget constraints, the project has
                                                not been funded since Fiscal Year 2003.


                                                                                                           Page 18
    The Modernization Program Is Establishing a Requirements Management Office
         to Address Requirements Development and Management Problems

              Project             Year                               Description
                                Initiated
  11.   Filing and Payment         2002       Improves the processes and technologies that support the
        Compliance                            IRS’ filing compliance and collection activities and
                                              managing the associated organizational change.

  12.   Infrastructure Shared      2002       Establishes a program to build and deliver an agile
        Services*                             infrastructure that is scalable, interoperable, flexible,
                                              manageable, and features standardized operations and a
                                              single security and enterprise systems management
                                              framework.

  13.   Modernized e-File*         2002       Develops the modernized web-based platform for filing IRS
                                              forms electronically.
Source: The IRS Business Systems Modernization online web site.
* We reported problems in developing and managing requirements for this project.




                                                                                                          Page 19
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

                                                                                                 Appendix VI


                           Previously Reported Findings on
                  Requirements Development and Management Activities
The following tables present the two major requirements management issues identified as
continuing concerns in Treasury Inspector General for Tax Administration (TIGTA) reports
issued since November 2001. Table 1 presents TIGTA report findings for which requirements
identification was not complete before projects entered the development process. Table 2
presents TIGTA report findings for which project requirements were not traced throughout the
project development life cycle. The tables identify the TIGTA report, the findings and
recommendations, and the status and synopsis of management’s proposed corrective actions.
Unless otherwise noted, the recommendations were directed to the Chief Information Officer
(CIO) for corrective action.
                         Table 1: TIGTA Reports With Incomplete Requirements Issues

                Report                  Finding/Recommendation                    Corrective Action

    Modernization Project              Finding: Business
    Teams Need to Follow Key           requirement identification was
    Systems Development                not completed before entering
    Processes                          the project development
    (Reference Number                  process.                       Management Response
    2002-20-025, dated                                                July 23, 2002 – No
                                       Recommendation: Identify       additional corrective action
    November 2001).                    and incorporate business       needed. The Business
                                       requirements meeting           Systems Modernization
                                       customer needs prior to        Office (BSMO) approved
                                       entering Development phase. the Enterprise Architecture
                                                                      which established the high-
                                                                      level requirements and
                                                                      standards for the business.
                                                                      Also, the Enterprise Life
                                                                      Cycle (ELC)1 already
                                                                      called for the identification
                                                                      of requirements early in
                                                                      the development of the
                                                                      projects.



1
 The ELC establishes a set of repeatable processes and a system of reviews that reduce the risks of system
development on Business Systems Modernization projects. See Appendix VIII for an overview of the ELC.
                                                                                                         Page 20
       The Modernization Program Is Establishing a Requirements Management Office
            to Address Requirements Development and Management Problems

                Report                    Finding/Recommendation                     Corrective Action

    Critical Processes and              Finding: The requirements
    Dependencies Need to Be             management process needs to
    Addressed to Avoid                  be strengthened and
    Further Delays in                   formalized.
    Deployment of the                   Recommendations:
    Enterprise Systems                                                          1) Management Response
    Management Project                  1) Develop and implement
                                        formalized, proactive methods           April 4, 2002 – No
    (Reference Number                                                           corrective action taken.
    2002-20-084, dated                  for assisting other
                                        modernization projects in               The Enterprise Systems
    May 2002).                                                                  Management (ESM)
                                        refining their system
                                        requirements.                           project team includes a
                                                                                requirements manager who
                                                                                proactively works with
                                                                                modernization projects to
                                                                                educate and gather ESM
                                                                                requirements from
                                                                                stakeholders.

                                        2) Address MITRE’s2                     2) Completed May 2, 2002
                                        recommendations from the                – MITRE’s role is to
                                        review of the ESM project’s             provide advice and
                                        System Requirements Report              guidance to the Internal
                                        (SRR). The recommendations              Revenue Service (IRS)
                                        included making requirements            executives overseeing the
                                        more detailed so they can be            Business Systems
                                        tested.                                 Modernization (BSM)
                                                                                projects. Since the audit,
                                                                                the IRS considered
                                                                                MITRE’s
                                                                                recommendations for ESM
                                                                                and incorporated them into
                                                                                guidance as appropriate.




2
 The MITRE Corporation (MITRE) is a not-for-profit organization chartered to work in the public interest. As a
national resource, it applies its expertise in systems engineering, information technology, operational concepts, and
enterprise modernization to address its sponsors’ critical needs.
                                                                                                             Page 21
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

               Report                   Finding/Recommendation                   Corrective Action

    Adhering to Established           Findings:
    Development Guidelines            1) The balancing, control, and
    Will Help to Ensure the           reconciliation process needs
    Customer Account Data             to be completed and tested
    Engine Meets Expectations         prior to Release 1.
    (Reference Number
    2003-20-089, dated                2) Release 1 entered the
    March 2003).                      Development phase before all
                                      design requirements were
                                      identified.
                                      3) File and job names need to
                                      be compatible with current tax
                                      processing systems.
                                      Recommendations:
                                      1) Require the PRIME                  1) Completed
                                      contractor3 to complete the           December 23, 2003 –
                                      balancing, control, and               Critical balancing, control,
                                      reconciliation process and            and reconciliation
                                      fully test these processes to         processes for Release 1
                                      ensure they meet the design           have been completed and
                                      requirements.                         tested.



                                      2) Ensure the business system         2) Completed
                                      design is complete before             August 1, 2003 – The
                                      entering the Development              Release strategy has been
                                      phase for Release 2 and future        revised to ensure the
                                      releases.                             Development phase for
                                                                            Release 2 and future
                                                                            releases will not begin
                                                                            until the completion of
                                                                            system design.




3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
                                                                                                       Page 22
 The Modernization Program Is Establishing a Requirements Management Office
      to Address Requirements Development and Management Problems

         Report              Finding/Recommendation              Corrective Action

Adhering to Established     3) Ensure development of job     3) Completed
Development Guidelines      and file naming standards is     October 1, 2003 – The
Will Help to Ensure the     expeditiously completed by       Modernization Information
Customer Account Data       the IRS Enterprise Operations    Technology Services
Engine Meets Expectations   Services organization. Also,     organization’s naming
(Reference Number           ensure these naming standards    standards have been
2003-20-089, dated          are used in the development      approved, and the System
March 2003). (Continued)    of future Customer Account       Information Bulletins
                            Data Engine (CADE) releases      requiring the necessary
                            and all other IRS                programming are being
                            modernization projects.          implemented.


Improvements to the         Finding: A decision to deploy
Modernized Infrastructure   was made even with
Are Needed to Support the   significant cost increases and
Deployment of Business      limitations on system
Systems Modernization       performance.
Projects (Reference         Recommendation: Require          Completed May 12, 2004 –
Number 2003-20-161,         additional efforts to ensure     The IRS is developing an
dated August 2003).         performance and capacity         End-to-End Capacity and
                            planning are adequately          Performance process for
                            addressed at an enterprise       the infrastructure projects
                            level and do not allow           to follow in support of
                            deployment of any BSM            application projects
                            project without demonstration    capacity and performance
                            of the capability to meet        requirements.
                            performance requirements.




                                                                                     Page 23
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

               Report                   Finding/Recommendation                   Corrective Action

    Requirements Definition of        Finding: Not all Federal
    the Integrated Financial          Government financial
    System (Reference Number          management system
    2003-10-179, dated                requirements addressed.
    August 2003).                     Recommendations: The Chief
                                      Financial Officer (CFO)
                                      should –
                                      1) Ensure the Joint Financial          1) Completed
                                      Management Improvement                 August 15, 2003 –
                                      Program (JFMIP)4                       Management will ensure
                                      requirements are fully                 the PRIME contractor
                                      addressed, the mandatory               includes or identifies the
                                      requirements are included in           remaining 4 mandatory
                                      the SRR, and the value-added           and 20 value-added
                                      requirements are properly              requirements in the
                                      evaluated to ensure                    revalidated SRR during
                                      compliance with the JFMIP.             Milestone 2/3 of each of
                                                                             the appropriate future
                                                                             releases.

                                      2) Take a more active role to          2) Completed
                                      ensure the contractor is               August 29, 2003 –
                                      meeting its responsibilities to        Management will respond
                                      deliver a JFMIP-compliant              immediately to identified
                                      system.                                gaps in requirements.
                                                                             Also, significant CFO
                                                                             resources were identified
                                                                             to participate in
                                                                             Application Quality
                                                                             Testing and Systems
                                                                             Integration Testing to
                                                                             ensure the system meets
                                                                             established requirements.




4
 The JFMIP is a joint undertaking of the Department of the Treasury, the Government Accountability Office, the
Office of Management and Budget, and the Office of Personnel Management working in cooperation with each
other and other agencies to improve financial management practices in the Federal Government.
                                                                                                        Page 24
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

                Report                   Finding/Recommendation                     Corrective Action

    Oversight of the Business          Finding: The IRS did not
    Systems Modernization              obtain written assurance that
    Contractor Needs                   new computer systems will
    Improvement (Reference             meet business requirements.
    Number 2004-20-034,                Recommendations:
    dated January 2004).               1) Ensure future task orders            1) Completed
                                       include the requirement that            September 7, 2004 – Late
                                       the PRIME contractor provide            last year, the CIO issued a
                                       written assurance it and its            directive requiring fixed-
                                       major subcontractors                    price contracting for all
                                       performed adequate diligence            systems development and
                                       in defining all significant             implementation projects.
                                       business requirements and the           The new ELC Framework
                                       proposed new systems will               signed August 20, 2004,
                                       deliver all of the essential            establishes a formal
                                       functional and operational              checkpoint, Milestone 4A,5
                                       capabilities needed by the              at which point mutually
                                       systems’ users.                         agreed detailed
                                                                               specifications are required
                                                                               and agreed to by the
                                                                               contractor by signing the
                                                                               firm fixed-price contract.
                                       2) Conduct an analysis of               2) Corrective action in
                                       future change requests to               process – open as of
                                       determine whether the change            November 18, 2004 – The
                                       should have been part of the            BSMO will include
                                       contractor’s normal                     contracting language that
                                       requirements gathering. Task            failure to identify any
                                       orders to define business               material requirement is the
                                       requirements should be                  PRIME contractor’s
                                       written to hold the PRIME               responsibility and any
                                       contractor responsible for              work to include such a
                                       making such changes at no               requirement is included
                                       additional cost to the IRS.             under the agreed price.


5
  The Milestone 4 activities are separated by two checkpoints. Activities leading up to Milestone 4A involve further
requirements definition, production of the system’s physical design, and determination of the applicability of
fixed-price contracting to complete system development and deployment. To achieve Milestone 4B, the system is
integrated with other business systems and tested, piloted (usually), and prepared for deployment.
                                                                                                           Page 25
  The Modernization Program Is Establishing a Requirements Management Office
       to Address Requirements Development and Management Problems

          Report              Finding/Recommendation             Corrective Action

Requirements Changes         Finding: Previous business
and Testing Delays Have      case estimates have been
Further Increased the        significantly inaccurate.
Costs and Delayed the
Benefits of the e-Services   Recommendation: Establish a      Completed
Project (Reference           more formal discipline to        September 30, 2003 – A
Number 2004-20-036,          ensure system requirements       Directive was issued to
dated February 2004).        are established prior to         establish a Configuration
                             beginning development.           Management process and
                                                              procedures for monitoring
                                                              change requests. Further
                                                              improvement to the
                                                              requirements management
                                                              will be completed through
                                                              actions within the
                                                              Challenges Action Plan.
Modernized e-File Project    Finding: Ineffective
Integration Difficulties     coordination about the project
Have Delayed Its             design has delayed
Deployment (Reference        deployment.
Number 2004-20-072,
dated March 2004).
                             Recommendation: Update           Completed
                             ELC project development          August 20, 2004 – The
                             process to include provisions    CIO signed the revised
                             to certify the project’s         ELC guidelines. This
                             physical design is in            revised ELC requires a
                             compliance with the              physical design to be
                             Enterprise Architecture.         completed (at Milestone
                                                              4A) prior to the
                                                              commencement of
                                                              development.




                                                                                     Page 26
         The Modernization Program Is Establishing a Requirements Management Office
              to Address Requirements Development and Management Problems

                  Report                    Finding/Recommendation              Corrective Action

      The Integrated Financial             Findings:
      System Software Does Not             1) Risk of noncompliance
      Comply With Some                     with the Federal Financial
      Accounting Standards or              Management Improvement
      Contain Certain                      Act (FFMIA) of 1996.6
      Functionality as
      Originally Asserted by the
      Vendor (Reference                    2) Asserted out-of-the-box
      Number 2004-10-187,                  requirements were not met by
      dated September 2004).               vendor software.


                                           Recommendations:
                                           1) The CFO should ensure all     1) Corrective action
                                           JFMIP and FFMIA                  in process – open as of
                                           requirements and accounting      November 18, 2004 – The
                                           standards are operating before   CFO will ensure those
                                           the Integrated Financial         requirements not satisfied
                                           System (IFS) deployment. If      in Release 1 are
                                           this is not feasible, the IRS    implemented in subsequent
                                           should move to the Federal       enhancements or upgrades.
                                           Government version of the        Upon successful
                                           IFS as soon as possible, and     implementation of the IFS,
                                           the CFO should ensure these      Release 1, the CFO will
                                           requirements are included in     develop an action plan to
                                           that version.                    address enhancements and
                                                                            future releases of the IFS–
                                                                            especially the upgrade to
                                                                            the Federalized version of
                                                                            the software which should
                                                                            close many of the existing
                                                                            JFMIP gaps.




6
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                                    Page 27
  The Modernization Program Is Establishing a Requirements Management Office
       to Address Requirements Development and Management Problems

         Report               Finding/Recommendation              Corrective Action
The Integrated Financial     2) The CFO, in concert with      2) Completed
System Software Does Not     the Director, Procurement,       September 30, 2004 – The
Comply With Some             and the Associate CIO, BSM,      CFO has implemented the
Accounting Standards or      should ensure a coordinated      recommendation to
Contain Certain              and united stance is taken       coordinate the IFS contract
Functionality as             when conducting any              negotiations with the
Originally Asserted by the   negotiations with the IFS        Director, Procurement, and
Vendor (Reference            contractor concerning the cost   the Associate CIO, BSM.
Number 2004-10-187,          associated with the
dated September 2004).       functionality of accounting
(Continued)                  requirements that were
                             asserted to be ready for
                             deployment by the software
                             subcontractor.

                             3) The CFO should ensure all     3) Completed
                             costs are considered when any    September 30, 2004 – The
                             negotiations are held            IRS has worked together to
                             concerning system                ensure all costs associated
                             requirement deferrals.           with requirements that
                                                              were asserted to be ready
                                                              for deployment by the
                                                              software subcontractor, but
                                                              not delivered in Release 1,
                                                              were included in the
                                                              negotiations.

To Ensure the Customer       Findings:
Account Data Engine’s        1) Manual processes within
Success, Prescribed          the CADE Release 1.1 need to
Management Practices         be automated for future
Need to Be Followed          releases.
(Reference Number
2005-20-005, dated           2) The CADE Program does
November 2004).              not have a dedicated system
                             architect.




                                                                                      Page 28
    The Modernization Program Is Establishing a Requirements Management Office
         to Address Requirements Development and Management Problems

             Report             Finding/Recommendation            Corrective Action

  To Ensure the Customer       Recommendations:
  Account Data Engine’s        1) Ensure inefficient manual    1) Corrective action in
  Success, Prescribed          processes, including the        process – open as of
  Management Practices         processes cited above, are      November 22, 2004 – The
  Need to Be Followed          automated in future CADE        CIO plans a number of
  (Reference Number            releases.                       specific changes for the
  2005-20-005, dated                                           January 2005 and
  November 2004).
                                                               July 2005 CADE release
  (Continued)                                                  deliveries to address
                                                               known operational
                                                               inefficiencies.


                                                               2) Corrective action in
                               2) Ensure the BSMO makes        process – open as of
                               the system architecture         November 22, 2004 – The
                               resources being acquired        CIO has been recruiting
                               available to the CADE           for the last year to find
                               program on a full-time basis.   qualified engineering
                                                               resources, some of which
                                                               will be dedicated to the
                                                               CADE project. Until the
                                                               additional staffing is
                                                               on the rolls, the BSMO is
                                                               providing the CADE
                                                               engineering/architecture
                                                               support from the existing
                                                               Enterprise Architecture
                                                               team and MITRE.
Source: TIGTA audit reports.




                                                                                      Page 29
 The Modernization Program Is Establishing a Requirements Management Office
      to Address Requirements Development and Management Problems

               Table 2: TIGTA Reports With Requirements Traceability Issues

         Report              Finding/Recommendation               Corrective Action

The Customer               Finding: Testing processes
Communications Project     did not ensure all capabilities
2001 Release Was           were working as intended.
Deployed, But Testing      Recommendation: Perform
Processes Did Not Ensure                                     Completed March 1, 2002
                           reviews to ensure the BSMO        – On July 13, 2001, the
All Applications Were      receives documentation from
Working As Intended                                          PRIME contractor issued
                           the PRIME contractor              its Program Validation and
(Reference Number          showing project system
2002-20-056, dated                                           Verification Plan that
                           requirements are traced to use    requires all test plans to
March 2002).               cases, test cases, and test       include a requirements
                           procedures.                       traceability matrix that
                                                             maps all requirements to
                                                             the test case and test
                                                             phase. The IRS Product
                                                             Assurance organization
                                                             will conduct reviews of the
                                                             requirements traceability
                                                             matrices.

                                                             Office of Audit Comment:
                                                             Management’s response
                                                             shows this action was
                                                             completed in July 2001.
                                                             We question whether that
                                                             date is accurate, since we
                                                             raised this issue after that
                                                             date and were not provided
                                                             information regarding
                                                             corrective actions. If this
                                                             corrective action was taken
                                                             before we identified the
                                                             issue, then we must
                                                             conclude that the actions
                                                             taken were either
                                                             incomplete or ineffective.




                                                                                      Page 30
  The Modernization Program Is Establishing a Requirements Management Office
       to Address Requirements Development and Management Problems

         Report               Finding/Recommendation                Corrective Action

Enhancements to the          Finding: The Internet Refund
Internet Refund Project      Fact of Filing Project is not
Need to Be Completed to      complete, has not provided all
Ensure Planned Benefits to   expected benefits, and has
Taxpayers Are Realized       exceeded planned costs.
(Reference Number            Recommendation:
2003-20-053, dated                                              Not Applicable
                             Recommendations for
February 2003).              corrective actions to address
                             the issues were reported in
                             previous TIGTA reports.
Risks Are Mounting as the    Finding: Project testing
Integrated Financial         practices can be improved.
System Project Team          The Application Qualification
Strives to Meet an           Testing requirements
Aggressive Implementation    traceability verification matrix
Date (Reference Number       (RTVM) was not complete.
2004-20-001, dated           Recommendation: Ensure             Completed April 30, 2004
October 2003).               System Integration and Test        – The Acquisition Project
                             practices are strengthened         Manager performed an
                             based on lessons learned           independent verification of
                             during the initial Application     the RTVM.
                             Qualification Testing.


Requirements Changes and     Finding: Requirements
Testing Delays Have          changes were not easily
Further Increased the        traceable.
Costs and Delayed the        Recommendation: Ensure the
Benefits of the e-Services                                      Completed April 1, 2004 –
                             e-Services requirements            Management prepared a
Project (Reference           database clearly reflects when
Number 2004-20-036,                                             change request to add
                             a requirement is changed and       additional fields to the
dated February 2004)         which approval change              requirements database to
                             request documents the change.      ensure clear traceability
                             Additionally, the change           and level of approval
                             request document should            indicator.
                             indicate specific requirements
                             affected.



                                                                                        Page 31
 The Modernization Program Is Establishing a Requirements Management Office
      to Address Requirements Development and Management Problems

         Report              Finding/Recommendation             Corrective Action

Improvements Are Needed     Finding: Some test cases and
for Subsequent Integrated   scripts were incomplete or
Financial System Testing    inaccurate, and some system
(Reference Number           requirements could not be
2004-10-052, dated          easily traced.
March 2004).                Recommendation: The CFO         Completed
                            should ensure subsequent        October 21, 2003 – The
                            System Integration and Test     IRS created and is
                            plans, cases, and scripts are   maintaining a current list
                            complete and accurate and all   of all requirements and has
                            applicable financial system     verified all requirements
                            requirements can be readily     are being tested
                            accounted for during the        adequately.
                            testing process.
                                                            Completed
                                                            October 1, 2003 – The
                                                            RTVM has been reviewed
                                                            and validated by the IRS
                                                            to ensure all requirements
                                                            have been properly
                                                            mapped to test plans.

                                                            Completed March 1, 2004
                                                            – The RTVM is reviewed
                                                            weekly by the IRS to
                                                            ensure all requirement
                                                            change requests and any
                                                            other changes have been
                                                            properly reflected in the
                                                            RTVM and documented.

                                                            Completed March 1, 2004
                                                            – During testing, the IRS
                                                            subject matter expert is
                                                            responsible for reverifying
                                                            that the requirements are
                                                            mapped properly and have
                                                            been met by the
                                                            functionality tested in the
                                                            test plan.

                                                                                    Page 32
  The Modernization Program Is Establishing a Requirements Management Office
       to Address Requirements Development and Management Problems

          Report              Finding/Recommendation               Corrective Action

The Integrated Financial     Finding: Testing practices
System Project Team          continue to need
Needs to Resolve             improvement.
Transition Planning and       1) The RTVM and related
Testing Issues to Increase   documentation were
the Chances of a             incomplete.
Successful Deployment
(Reference Number            2) Deviation forms did not
2004-20-147, dated           include all signatures.
August 2004).                3) Some required security
                             features are not being tested.


                             Recommendations:
                             1) The RTVM should be             1) Completed
                             updated to include a              August 31, 2004 – The
                             verification and validation       new ELC framework,
                             method for all requirements.      signed by the CIO on
                                                               August 20, 2004, requires
                                                               updates to the RTVM
                                                               beginning at Milestone 2
                                                               and updates at each
                                                               successive milestone, as a
                                                               condition of milestone
                                                               exit.


                             2) Deviation forms should be      2) Completed
                             updated to include a signature    August 26, 2004 – The
                             line for all required approving   ELC requires the Program
                             officials.                        Office Director’s signature
                                                               for test case waivers and
                                                               deferrals. This signature
                                                               line is included in all but
                                                               the earliest waiver forms.




                                                                                       Page 33
   The Modernization Program Is Establishing a Requirements Management Office
        to Address Requirements Development and Management Problems

            Report              Finding/Recommendation              Corrective Action

 The Integrated Financial      3) Trusted recovery and object   3) Rejected
 System Project Team           reuse testing should occur or    August 26, 2004 – The
 Needs to Resolve              the risk of not conducting       IRS is no longer required
 Transition Planning and       these tests should be            by the Department of the
 Testing Issues to Increase    documented.                      Treasury to test for object
 the Chances of a                                               reuse capabilities.
 Successful Deployment                                          Office of Audit Comment:
 (Reference Number                                              While the Department of
 2004-20-147, dated                                             the Treasury requirement
 August 2004).                                                  may have changed, the
 (Continued)                                                    Internal Revenue Manual
                                                                still requires object reuse
                                                                testing. Therefore, we
                                                                believe the IRS should
                                                                conduct the required
                                                                testing, particularly since it
                                                                plans to perform object
                                                                reuse testing on one
                                                                computer platform and not
                                                                the other. In addition, the
                                                                IRS’ response did not
                                                                address trusted recovery
                                                                testing.

 System Requirements Were      Finding: System
 Not Adequately Managed        requirements were not
 During the Testing of the     adequately managed during
 Custodial Accounting          testing.
 Project (Reference
 Number 2005-20-019,           Recommendation: Ensure the       Completed June 30, 2004
 dated December 2004).         IRS and contractor implement     – The CIO responded the
                               appropriate requirements         corrective action has been
                               management practices, as         completed with a
                               required by the ELC, to          strengthened requirements
                               adequately define, track, and    management process to
                               report on system requirements    ensure system
                               for testing and delivery of      requirements are defined,
                               future releases.                 tracked, and reported.
Source: TIGTA audit reports.

                                                                                         Page 34
     The Modernization Program Is Establishing a Requirements Management Office
          to Address Requirements Development and Management Problems

                                                                                        Appendix VII


                         Comparison of Audit Findings,
           Requirements Development and Management Guidelines, and
        Proposed Requirements Management Office Responsibility Options

The following tables present a comparison of the audit findings reported by the Treasury
Inspector General for Tax Administration (TIGTA) with associated requirements development
and management guidelines and the proposed Business Systems Modernization (BSM) Office
Requirements Management Office responsibility options related to the TIGTA report findings.
     Table 1: Analysis of Findings and Guidelines to Complete Requirements Prior to Development

                                                         Addressed
                                                         in Option       Requirements
                                                                       Management Office’s
      Finding/Guideline               Source             1   2    3      Responsibilities
      Requirements need to    TIGTA Reports: Key         X             Cofacilitate business
      be completed before     Processes 11/01;                         requirements with the
      development begins.     Enterprise Systems                       requirements contractor to
                              Management 5/02;                         ensure use of standard
                              Customer Account Data                    requirements development
                              Engine 3/03; Oversight                   techniques.
                              of BSM Contractor 1/04;
                              e-Services 2/04
      Requirements need to    TIGTA Reports:             X             1) Cofacilitate business
      meet the Internal       Customer Account Data                    requirements with the
      Revenue Service and     Engine, 3/03; Integrated                 requirements contractor to
      Federal Government      Financial System 8/03;                   ensure use of standard
      standards for           Modernized                               requirements development
      information systems.    Infrastructure 8/03;                     techniques.
                              Modernized e-File 3/04;                  2) Assist in the
                              Integrated Financial                     identification and
                              System 9/04                              integration of enterprise
                                                                       requirements.




                                                                                                    Page 35
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

                                                              Addressed
                                                              in Option          Requirements
                                                                               Management Office’s
       Finding/Guideline                  Source              1     2     3      Responsibilities
       Obtain commitment to       CMMI-SE-SW-IPPD-            X                Cofacilitate business
       requirements.              SS1 pgs 86, 87 (Maturity                     requirements with the
                                  Level 2) and BSMO-PD                         requirements contractor to
                                  Req D&M2 Sect 5                              ensure use of standard
                                                                               requirements development
                                                                               techniques.

       Complete understanding     CMMI-SE-SW-IPPD-SS          X                1) Cofacilitate business
       of customers’ needs and    pgs 206, 210, 213-214,                       requirements with the
       requirements.              and 216-217                                  requirements contractor to
                                  (Maturity Level 3)                           ensure use of standard
                                                                               requirements development
                                                                               techniques.
                                                                               2) Assist in the
                                                                               identification and
                                                                               integration of enterprise
                                                                               requirements.
       Identify and involve the   CMMI-SE-SW-IPPD-SS                           None
       relevant stakeholders.     pg 91 (Maturity Level 2)
                                  and BSMO-PD Req
                                  D&M
       Eliciting requirements     CMMI-SE-SW-IPPD-SS                           None
       needs an approach to       pg 210 (Maturity
       proactively identify       Level 3)
       requirements not
       explicitly provided by
       customers.
      Source: TIGTA audit reports.




1
  Carnegie Mellon Software Engineering Institute’s Capability Maturity Model Integration [CMMI]-Systems
Engineering-Software Engineering-Integrated Product and Process Development-Supplier Sourcing, March 2002.
The CMMI models provide guidance for an organization to use when developing its processes. These models help
an organization appraise its capability, establish priorities for improvement, and implement these improvements.
2
  Business Systems Modernization Office Process Description-Requirements Development and Management,
January 31, 2004.
                                                                                                            Page 36
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

   Table 2: Analysis of Findings and Guidelines to Allow Project Requirements Traceability With
                                  Product Development Activities

                                                        Addressed
                                                        in Option     Requirements
                                                                    Management Office's
 Finding/Guideline                  Source              1   2   3     Responsibilities
Requirements                 TIGTA Reports:                         None
traceability needs to be     Customer
verified.                    Communications, 3/02;
                             Internet Refund Fact of
                             Filing, 2/03; Integrated
                             Financial System, 10/03;
                             e-Services, 2/04; and
                             Integrated Financial
                             System, 3/04 and 8/04


Maintain bidirectional       CMMI-SE-SW-IPPD-SS                     None
traceability of              pg 88 (Maturity Level 2)
requirements and             and BSMO-PD Req
confirm the                  D&M Sect 7.1
requirements are
testable.
Validation demonstrates      CMMI-SE-SW-IPPD-SS                     None
the product, as              pg 282 (Maturity
provided, will fulfill its   Level 3)
intended use; whereas,
verification addresses
whether the work
product properly
reflects the specified
requirements.


Source: TIGTA audit reports.




                                                                                          Page 37
       The Modernization Program Is Establishing a Requirements Management Office
            to Address Requirements Development and Management Problems

                                                                                                    Appendix VIII


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
1. Life-Cycle Processes, which are organized into phases and subphases and address all
   domains of business change.
2. Management Processes, which are organized into management areas and operate across the
   entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 38
                 The Modernization Program Is Establishing a Requirements Management Office
                      to Address Requirements Development and Management Problems

                                                        Enterprise Life-Cycle Processes


                                       IRS Governance and Investment Decision Management
    Management




                                                Program Management and Project Management

                                       Architectural Engineering / Development Coordination

                                                        Management Support Processes


                                                                                                     Business Processes




                                                                                                                              Operations & Support
                                                                                                             Applications
                   Vision & Strategy




                                                         Development
                                         Architecture




                                                                                     Deployment
                                                                       Integration
    Life Cycle




                                                                                                                     Data


                                                                                                  Organizational Change


                                                                                                  Technical Infrastructure


                                                                                                  Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                 Vision and Strategy – This phase establishes the overall direction and priorities for
                  business change for the enterprise. It also identifies and prioritizes the business or system
                  areas for further analysis.
•                 Architecture – This phase establishes the concept/vision, requirements, and design for a
                  particular business area or target system. It also defines the releases for the business area
                  or system.


                                                                                                                                                 Page 39
     The Modernization Program Is Establishing a Requirements Management Office
          to Address Requirements Development and Management Problems

•      Development – This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration – This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment – This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support – This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management – This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management – This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination – This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.


                                                                                           Page 40
      The Modernization Program Is Establishing a Requirements Management Office
           to Address Requirements Development and Management Problems

•      Management Support Processes – This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 – Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•      Milestone 2 – Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 – Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 – Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
       activities are separated by two checkpoints. Activities leading up to Milestone 4A
       involve further requirements definition, production of the system’s physical design, and
       determination of the applicability of fixed-price contracting to complete system
       development and deployment. To achieve Milestone 4B, the system is integrated with
       other business systems and tested, piloted (usually), and prepared for deployment. The
       primary decision at Milestone 4B is to authorize the release for enterprise-wide
       deployment and commit the necessary resources.


                                                                                           Page 41
    The Modernization Program Is Establishing a Requirements Management Office
         to Address Requirements Development and Management Problems

•    Milestone 5 – Business Systems Deployment and Postdeployment Evaluation. In the
     activities leading up to Milestone 5, the business solution is fully deployed, including
     delivery of training on use and maintenance. The primary decision at Milestone 5 is to
     authorize the release of performance-based compensation based on actual, measured
     performance of the business system.




                                                                                      Page 42
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems

                                                                 Appendix IX


              Management’s Response to the Draft Report




                                                                       Page 43
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems




                                                                       Page 44
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems




                                                                       Page 45
The Modernization Program Is Establishing a Requirements Management Office
     to Address Requirements Development and Management Problems




                                                                       Page 46
